  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




RUTGERS, THE STATE UNIVERSITY OF
NEW JERSEY’S COSTS CLAIMED UNDER
      THE RECOVERY ACT FOR
  NATIONAL INSTITUTES OF HEALTH
 GRANT NUMBER 1RC1CA147187-01
        WERE ALLOWABLE

    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                      James P. Edert
                                                 Regional Inspector General

                                                         August 2012
                                                        A-02-11-02010
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                                INTRODUCTION

BACKGROUND

National Center for Research Resources

Within the U.S. Department of Health and Human Services, the National Institutes of Health
(NIH) is the steward of medical and behavioral research for the nation. Until it was dissolved in
December 2011, the National Center for Research Resources (NCRR) was an NIH center that
provided laboratory scientists and clinical researchers with tools and training to understand,
detect, treat, and prevent a wide range of diseases. 1

American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided $8.2 billion to NIH to stimulate the economy through the support and advancement of
scientific research. Of the $8.2 billion, NCRR was given $300 million for shared
instrumentation and other capital equipment.

Recovery Act funds were used to award grants and cooperative agreements to research entities
including nonprofit and for-profit organizations, universities, hospitals, research foundations,
governments and their agencies, and occasionally individuals.

Federal Requirements

Federal regulations (45 CFR 74) provide the uniform administrative requirements for awards and
subawards to instiutions of higher education and other nonprofit and commercial organizations.
The allowability of costs incurred by institutions of higher education are determined in
accordance with the cost principles contained in Office of Management and Budget Circular
A-21 The Cost Principles for Educational Institutions (2 CFR part 220). Policy requirements
that serve as the terms and conditions of NIH grant awards are published in the National
Institutes of Health Grants Policy Statement (Grants Policy Statement).

Rutgers, The State University of New Jersey

Rutgers, The State University of New Jersey (Rutgers), founded in 1766, is a national public
research university. On March 24, 2010, NCRR used Recovery Act funds to award Rutgers a
grant under its NIH Challenge Grants in Health and Science Research initiative (NIH grant
number 1RC1CA147187-01) totaling $996,415. The purpose of the grant was for genome
research. 2 The grant budget period was March 24, 2010, through February 28, 2012. On


1
 On December 23, 2011, President Obama signed into law P.L. 112-74, the Fiscal Year 2012 Consolidated
Appropriations Act. As part of this legislation, the NCRR was dissolved and its’ programs were reassigned to the
other NIH components.
2
    The grant is currently administered by NIH’s National Cancer Institute.

                                                           1
December 6, 2011, Rutgers requested a no-cost extension through August 30, 2012. This request
was later approved. As of February 28, 2012, the grantee claimed $931,230 under the grant.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Rutgers claimed costs in accordance with the terms of
the grant and applicable Federal regulations.

Scope

We reviewed costs claimed by Rutgers from March 24, 2010, through February 28, 2012,
totaling $931,230 ($669,230 for direct costs and $262,000 for indirect costs).

We limited our assessment of Rutgers’ internal controls to those that related to our
objective. We performed fieldwork at Rutgers’ administrative offices in New
Brunswick, New Jersey.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal requirements,

   •    obtained Rutgers’ grant application package and notices of grant award,

   •    reviewed Rutgers’ fiscal procedures and cost allocation methodology,

   •    analyzed selected costs for allowability, and

   •    discussed our results with Rutgers officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                      RESULTS OF AUDIT

Based on the evidence reviewed, we did not identify any discrepancies that would indicate that
Rutgers’ claimed costs, totaling $931,230, were not allowable in accordance with the terms of
the grant and Federal cost principles. Consequently, this report has no recommendations.



                                                  2
